9

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

December 16, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Warren E. Rosenfeld v. United States of America

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari referenced above contains 8,732 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,s'
)
Jack Suber, Esq.
Principal

LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My commis^on exp. October 12,2022

©

Sworn and subscribed before me this 16th day of December 2020.

